                               CLOSEOUT FOR A01 100034

    On October 26,2001, our office received an allegation concerning ethical issues in the
    preparation of an NSF proposal. The complainant1 alleged that he had discussed his
    recently h d e d proposal2with two fellow researchers (Subjects 1 and 2)3 at a meeting of
    their professional society, and that Subjects incorporated his research plans into their
    NSF proposal4.In support of his allegation, Complainant included a 2-page outline of his
    proposal. In response to our request for additional information, Complainant informed us
    that the full proposal was in Japanese, that he had not given a copy of the full proposal to
    Subjects, and that he had not requested that the discussion of his research plans be treated
    as confidential.
'   In assessing Complainant's allegation, we considered the possibility of intent to secure
    funding for work already performed, plagiarism, andlor intellectual theft. On the issue of
    duplicative research, we determined that it is not unusual for multiple teams to conduct
    population genetics research in the same region. We W h e r determined that Subjects did
    not claim their project was innovative or unique. Their proposal explicitly acknowledges
    that at least one other team is engaged in the same fieldwork.

    We next compared Complainant's proposal outline with Subjects' NSF proposal and
    found little identifiable overlap beyond the geographical area shared by the two
    proposals. Based on Complainant's statement that his full proposal was in Japanese and
    that he did not give a copy to the Subjects, we determined that verbatim plagiarism was
    unlikely. In terms of intellectual theft, we observed that a recognized purpose of
    professional meetings is for scholars to share ideas and plans. We found no evidence that
    Complainant's research plan, if shared with Subjects at such a meeting, was so unique or
    innovative as to support a claim of intellectual ownership.

    In Subjects' defense, the NSF proposal represents the direct progression of a research
    agenda established with Subject 1's dissertation and continued through scholarly articles
    and NSF-funded research. Reviewers comment that the Subjects are highly-respected
    investigators in the field, that the proposal builds on the Subjects' long-standing research,
    and that the proposed project is an appropriate next step to previous work performed by
    the Subjects. Finally, Subjects recommended the Complainant as a reviewer for their
    proposal, indicating no attempt to conceal their research plans from Complainant.

    OIG concluded there is no substantive evidence that misconduct occurred. This inquiry is
    closed and no further action will be taken.

    cc: Investigations, IG




    ' [redacted]
        [redacted]
    3   [redacted]
        [redacted]


                                        Page 1 of 1
